                                  CLOSEOUT OF M92030013
       This case was brought to the attention of OIG by
                                                       -
 Directorate for Biological Sciences, on March 30, 1992.Iy                a program officer in NSF's
                                                                                  the complainant,
 i n f o r m e d f an apparent violation of a sample-sharing agreement between the subject-
-fier.                     Following her instructions, her graduate student, h-ad
 provided the subject with a sample.-fo                  According to the agreement that-accompanied
 the-the         sample was to be used only in the sequencing of specifics-I
0 Further, use of the-r                   any other purpose or providing samples to other individuals
 was to be preapproved by the co lainant. This agreement also informed the subject that the
 sequencing of other specific d s t r a n d s was already underway in the complainant's lab.

      The complainant subsequent1 discovered that the subject had submitted a manuscript containing a
 partial sequence for one of the b s t r a n d s she had sequenced,without credit to her. The
 complainant informed OIG that when she confronted the subject, he had stated that he had forgotten
 the stipulation about not sequencing t h a t strand. Their comparison of their independently
 derived m e q u e n c e s found several errors in the subject's, based on his inaccurate reading of the
 sequencing gel. He corrected the sequence reported in the manuscript and agreed to attribute that
 sequence to the complainant and her graduate student. The complainant informed OIG that she would
 be satisfied if the paper did indeed attribute the sequence to her graduate student and her. OIG
 obtained a copy of the published article and found that it attributed the-equence         in question to
 her graduate student and her three times. When contacted by OIG, the complainant stated her
 satisfaction with the attribution in the published paper.

     By correcting the manuscript before publication, the subject complied with the terms of the
 agreement letter. This case is closed without a finding of misconduct.




 Staff Scientist, Oversight

 Concurrence:




 Donald E. Buzzelli
 Senior Scientist, Office of Oversight            Assistant Inspector General for Oversight




 Assistarit Counsel to the Inspector General

 cc:     Assistant Inspector General for Oversight
         Inspector General
